1a
This opinion will be unpublished and
may not be cited except as provided by
Minn. Stat. § 480A.08, subd. 3 (2018)
STATE OF MINNESOTA
IN COURT OF APPEALS
A18-1651
In re the Marriage of: Thomas M. Dillahunt,
petitioner, Respondent,
vs.
Tami L. Mitchell, f/k/a Tami L. Dillahunt,
Appellant.
Filed June 24, 2019
Affirmed; motion denied
Klaphake, Judge*
Hennepin County District Court
File No. 27-FA-06-4968
Kathleen E. Rusler O’Connor, O’Connor Law and Mediation PLLC, Burnsville, Minnesota (for respondent)
Chris Zewiske, Ormond & Zewiske, Minneapolis, Minnesota (for appellant)
Considered and decided by Ross, Presiding Judge;
Bratvold, Judge; and Klaphake, Judge.
UNPUBLISHED OPINION
KLAPHAKE, Judge
Appellant Tami L. Mitchell, f/k/a Tami L. Dillahunt, filed this appeal from the district court’s division
* Retired judge of the Minnesota Court of Appeals, serving
by appointment pursuant to Minn. Const. art. VI, § 10.

2a
of marital property following the dissolution of her
marriage to respondent Thomas M. Dillahunt. She argues that the district court erred in its division of her
military retired pay and in denying her request for attorney fees. Because the district court’s findings of fact
were not clearly erroneous and because it did not otherwise abuse its discretion in dividing the military
retired pay and in denying Mitchell’s request for attorney fees, we affirm. We also deny Dillahunt’s motion to
strike or, in the alternative, for permission to file a surreply brief.
DECISION
I.
Mitchell advances several arguments challenging the district court’s division of her military retired
pay. She argues that the district court erroneously included the nonmarital portion of her retired pay in the
property division, applied the wrong valuation date,
failed to use the correct formula when determining the
amount of the parties’ share of the retired pay, and
failed to address her alternative formula proposal.
The district court has “broad discretion regarding
the division of property,” and its division of property
“will only be reversed on appeal if the [district] court
abused its discretion.” Lee v. Lee, 775 N.W.2d 631, 637
(Minn. 2009). A district court abuses its discretion in
dividing property if it resolves the matter in a manner
“that is against logic and the facts on record.” Rutten v.
Rutten, 347 N.W.2d 47, 50 (Minn. 1984). Division of retired pay is generally discretionary with the district

3a
court. Faus v. Faus, 319 N.W.2d 408, 413 (Minn. 1982).
“Appellate [courts] set aside a district court’s findings
of fact only if clearly erroneous, giving deference to the
district court’s opportunity to evaluate witness credibility. Findings of fact are clearly erroneous where an
appellate court is left with the definite and firm conviction that a mistake has been made.” Goldman v.
Greenwood, 748 N.W.2d 279, 284 (Minn. 2008) (quotations and citations omitted).
Military personnel who serve for a set number of
years may retire with pay. See 10 U.S.C.A. §§ 3911-14,
3929 (2012) (Army officers and enlisted members). The
amount of retired pay is determined by the number of
years served and the rank at which the member retires. See 10 U.S.C.A. §§ 1409, 3961 (2012) (Army). Federal statutes carve out a portion of a veteran’s retired
pay that may be treated as marital property and is divisible between spouses in a dissolution, providing that
state courts “may treat disposable retired pay” as marital property. 10 U.S.C. § 1408(c)(1) (2012). The term
“disposable retired pay” includes gross retired pay minus certain deductions. 10 U.S.C. § 1408(a)(4)(A) (2012).
The district court used the coverture formula
found in Janssen v. Janssen, 331 N.W.2d 752, 756 (Minn.
1983), to divide Mitchell’s retired pay. In Janssen,
the supreme court held that “a nonvested, unmatured
pension [like the one at issue in this appeal] is marital property which can be divided in a marital dissolution proceeding.” 331 N.W.2d at 753, 756. To calculate
the marital portion of such retired pay, the supreme
court adopted an approach that awards each spouse a

4a
percentage of the retired pay “only if and when” the
benefits are paid. Id. at 756. The supreme court held
that the marital portion of a benefits payment “will be
a fraction of that payment, the numerator of the fraction being the number of years (or months) of marriage
during which benefits were being accumulated, the denominator being the total number of years (or months)
during which benefits were accumulated prior to when
paid.” Id. (quotation omitted).
In this case, the parties were married in 1997, and
dissolved the marriage in 2008. The parties entered
into a Stipulation and Order Regarding Property Issues and agreed that Dillahunt should be awarded
“one-half of the marital portion” of Mitchell’s retired
pay, but did not agree on how to determine the value of
the marital portion. The district court concluded that
the valuation date for the pension was the date of the
Initial Case Management Conference, August 24,
2006, and applied the Janssen formula to Mitchell’s retired pay as follows:
To be sure, the parties were married from
August 1997 to March 2008. That is 127
months. But, to determine the number of
months of marriage accumulating the pension, the Court should use the valuation
date—in August 2006 instead of the date of
dissolution. So, the numerator of the Janssen
formula is 108 months. The total number of
months during which the benefits were accumulated prior to when paid is 240 months—
or twenty years. [Mitchell] served in the U.S.
Army for twenty years before retiring. So, the

5a
marital interest in the military pension is 108
over 240 or 45%. Under the Stipulated Order,
[Dillahunt] is entitled to half of the marital
interest of the military pension. Accordingly,
[Dillahunt] is entitled to 22.5% of the military
pension.
The district court then applied Dillahunt’s 22.5% share
to Mitchell’s monthly retired pay of $3,696 and awarded
him $831.60 per month.
Mitchell argues that, instead of applying the
Janssen formula, the district court should have applied
the “hypothetical retired pay” formula. The “hypothetical retired pay” formula that Mitchell proffers is identical to the Janssen formula except that, rather than
using the value of the benefits when they are paid, it
uses a hypothetical value calculated at some date prior
to when the benefits are paid. Mitchell argues that the
value of the pension should be that calculated as of the
Initial Case Management Conference held on August
24, 2006, with a cost of living adjustment. Applying the
“hypothetical retired pay” formula, Mitchell calculates
Dillahunt’s share of the retired pay at $317.90 per
month, based on a value of $1,412.90 as of August 24,
2006.
In support of this argument, Mitchell cites an unpublished opinion from this court. That opinion is factually distinguishable from this case because the
original judgment there included a non-Janssen formula for dividing military pension benefits, and that
formula was never challenged. Guggisberg v. Guggisberg, No. A10-0562, 2011 WL 891026, at *1-5 (Minn.

6a
App. Mar. 15, 2011), review denied (Minn. May 25,
2011). No such formula is found in the judgment at issue here. Further, not only is the method for dividing
military retirement pay espoused by Mitchell found
only in that unpublished opinion, unpublished opinions are not precedential. Minn. Stat. § 480A.08, subd.
3 (2018); see Dynamic Air, Inc. v. Bloch, 502 N.W.2d 796,
800-01 (Minn. App. 1993) (stating that “unpublished
opinions are not precedential” and at best “can be of
persuasive value”).
Moreover, the relevant federal statute was
amended after the unpublished opinion was filed. National Defense Authorization Act of 2018, Pub. L. No.
115-91, Title VI, § 624, 131 Stat. 1283, 1429-30 (2017).
The amended statute states that it “shall apply with
respect to any division of property as part of a final decree of divorce, dissolution, annulment, or legal separation . . . that becomes final after December 23, 2016.”
§ 624(c), 131 Stat. at 1430. Thus, if the parties’ dissolution was final in 2008, the 2017 amendment to the
statute would not apply. Here, however, while the dissolution was final in 2008, the division of the marital
property was not finalized until 2018.
Finally, we note that the district court carefully reviewed both proposed formulas before deciding to apply the Janssen formula, and Mitchell has not
established that any of the district court’s underlying
findings of fact were clearly erroneous or that the district court otherwise abused its discretion in its division of the retired pay.

7a
II.
Mitchell contends that “[t]he District Court erred
in denying [her] request for attorney fees based on
[Dillahunt’s] conduct and the parties’ agreement.”1
“A refusal to award attorney fees will not be reversed absent a clear abuse of discretion.” Kitchar v.
Kitchar, 553 N.W.2d 97, 104 (Minn. App. 1996), review
denied (Minn. Oct. 29, 1996). Conduct-based attorney
fees may be imposed “against a party who unreasonably contributes to the length or expense of the proceeding.” Minn. Stat. § 518.14, subd. 1 (2018). Conductbased fees may be based on the impact that a party’s
behavior has had on the costs of the litigation regardless of the relative financial resources of the parties.
Dabrowski v. Dabrowski, 477 N.W.2d 761, 766 (Minn.
App. 1991). “While bad faith could unnecessarily increase the length or expense of a proceeding, it is not
required for an award of conduct-based attorney fees
under Minn. Stat. § 518.14, subd. 1.” Geske v. Marcolina, 624 N.W.2d 813, 818-19 (Minn. App. 2001). The
requesting party bears the burden of establishing that

1

Minn. Stat. § 518.14, subd. 1 (2018), provides for the awarding of attorney fees that are “necessary to enable a party to carry
on or contest the proceeding.” Neither party has questioned
whether section 518.14 also provides a substantive basis for an
award of conduct-based attorney fees. See Anderson v. Anderson,
No. A16-2006, (Minn. Aug. 6, 2018) (order) (questioning whether
section 518.14 creates a substantive basis for an award of conduct-based attorney fees). For purposes of this appeal, we will assume without deciding that the statute does so.

8a
the other party’s conduct unreasonably contributed to
the length or expense of the proceeding. Id. at 818.
In the Stipulation and Order Regarding Property
Issues that followed the dissolution of the marriage,
the parties agreed that “[i]n the event either party renders it necessary for the other party to seek enforcement of any of the provisions herein, the party who
failed to comply with the terms of the Judgment and
Decree shall be responsible for all reasonable attorney’s fees and costs the other party incurred.”
Mitchell requested that the district court award
her conduct-based attorney fees for expenses she incurred due to Dillahunt’s failure to pay two prior judgments, including a prior award of conduct-based
attorney fees, and his “bad-faith litigation regarding
division of [her] military retirement pay.”
The district court denied Mitchell’s request, determining that Dillahunt “did not unreasonably contribute to the length or expense of the proceedings.” The
district court acknowledged that Dillahunt “did not diligently submit an Order Dividing [Mitchell’s] Military
Pay to the Court,” but determined that this lack of diligence did not unreasonably extend the proceedings
because the parties’ 2008 stipulated judgment regarding property “would not have permitted [Dillahunt] to
submit an order [dividing the military pension] without
[Mitchell’s] agreement, and the parties’ position on the
military pension [was] so divisive.” The district court
concluded that Mitchell’s allegations of “bad-faith

9a
litigation” represented “reasonable disagreements between acrimonious parties during civil litigation.”
The district court was familiar with the parties
and their continuing conflict and was in the best position to evaluate whether Dillahunt’s conduct unreasonably contributed to the time and expense of the
proceeding. See 650 N. Main Assn v. Frauenshuh, Inc.,
885 N.W.2d 478, 494 (Minn. App. 2016) (“Because the
district court is the most familiar with all aspects of
the action from its inception through post trial motions, it is in the best position to evaluate the reasonableness of requested attorney fees.” (quotation omitted)),
review denied (Minn. Nov. 23, 2016). The district court
made adequate findings and concluded that, although
Dillahunt could have been more diligent in bringing
his motion to divide the military retired pay, the parties’ opposing positions and need to agree before submitting such a motion excused his delay.
Moreover, Mitchell has not established that the attorney-fees provision of the 2008 Stipulation and Order Regarding Property Issues applies. Because
Dillahunt brought the motion to divide the military retired pay, he would be the party seeking enforcement
of that provision and would not be required to pay attorney fees under the terms of the property stipulation.
To the extent that Mitchell is seeking to enforce the
prior judgments requiring that Dillahunt pay attorney
fees, that action is not covered by the stipulation,
which applies to costs incurred in enforcing the terms
of that judgment and decree, and not subsequent

10a
judgments. In sum, the district court’s denial of attorney fees was within its discretion.
Mitchell also requests that this court award her
“attorney fees and costs incurred in this appeal.” “A
party seeking attorneys’ fees on appeal shall submit
such a request by motion under Rule 127.” Minn. R.
Civ. App. P. 139.06, subd. 1. We deny Mitchell’s current
request because she did not file a Rule 127 motion and
her request is therefore not properly before this court.
III.
Dillahunt filed a motion requesting that this court
strike Mitchell’s reply brief because it alleged new
facts, raised new arguments that were not responsive
to his brief, and attached in an addendum incomplete,
misleading exhibits. In the alternative, Dillahunt requested permission to file a surreply brief.
The arguments raised in Mitchell’s reply brief do
not exceed the scope of Dillahunt’s responsive brief and
constitute permissible rebuttal, and the documents included in her addendum are part of the record on appeal. Moreover, because Dillahunt addressed the
issues raised in Mitchell’s reply brief in his motion to
strike and his reply to Mitchell’s response to the motion to strike, and because Dillahunt had an opportunity at oral argument to address the reply brief, a
surreply brief was not necessary. Dillahunt’s motion to
strike and for permission to file a surreply brief are
therefore denied.

11a
IV.
Mitchell raises two additional arguments. She
contends that the district court “erred in finding it had
subject matter jurisdiction [under the relevant federal
statute] to order a division of the nonmarital portion of
[her] military retired pay.” Mitchell also contends that
“[t]he District Court abused its discretion in considering [Dillahunt’s] June 12, 2018 post-hearing letter
without giving [her] an opportunity to submit responsive correspondence.” We disagree. Our review of the
record indicates that Mitchell consented to the district
court’s jurisdiction, and consent is one method of establishing jurisdiction under the federal statute. See
10 U.S.C. § 1408(c)(4) (2012). Moreover, she was not
prejudiced by the posthearing letter. Mitchell has not
established that the district court’s findings of fact regarding jurisdiction were clearly erroneous or that the
district court abused its discretion regarding the letter.
Affirmed; motion denied.

12a
STATE OF MINNESOTA
COUNTY OF HENNEPIN

DISTRICT COURT
FOURTH JUDICIAL
DISTRICT

In the Marriage of:

Case No. 27-FA-06-4968

Thomas Dillahunt,

Findings of Fact,
Conclusion of Law,
and Order

Petitioner,
and

(Filed Sep. 10, 2018)

Tami Mitchell,
Respondent.
This matter came before the Honorable Bridget A.
Sullivan, Judge of District Court, on Post Final Decree
Hearing on June 11, 2018 at the Family Justice Center,
110 South Fourth Street, Minneapolis, County of
Hennepin, State of Minnesota.
Thomas M. Dillahunt (“Father”) personally appeared and was represented by Deborah Dewalt, Esq.
Tami Lynn Mitchell (“Mother”) personally appeared and was represented by Christopher Zewiske,
Esq.
Based upon the files, proceedings and records
herein, the Court makes the following:

13a
Findings of Fact
1.

The parties were married on August 15, 1997. The
parties are parents of one minor child (the “child”):
XXXXXXXXXXXXXXXXXX, born September 23,
2002.

2.

The parties appeared before the Honorable Referee David Piper for an Initial Case Management
Conference on August 24, 2006.

3.

The parties’ marriage was dissolved by a Findings
of Fact, Conclusions of Law, Order for Judgment
and Judgment and Decree dated March 19, 2008.
Judgment was entered on March 26, 2008.

4.

Father filed a Notice of Motion and Motion with
the Court on February 23, 2018. In that motion,
Father requested that the Court:
a.

Overrule the reports from the parenting consultant dated February 7, 2018, and February
9, 2018;

b.

Remove Lisa Kallemyn [sic] as the parties’
parenting consultant for good cause shown;

c.

Direct that the parties obtain a brief focused
evaluation by psychologist Kirsten Lysne with
a written report and recommendations on the
parenting time schedule and electronic communication provisions of the governing orders;

d.

Set a hearing to review and adjust the parenting time schedule and electronic communication provisions of the governing orders;

14a

5.

e.

Rule that the parties’ division of Respondent’s
military pension as set out in Conclusion No.
8 of the Stipulation and Order regarding property division entered on April 2, 2008, applies
to 100% of the monthly benefit to which Respondent was entitled to receive upon her retirement from the military without reductions
for joint survivor annuity option, waived disability benefit, or marital pro ration;

f.

Order the Petitioner’s Order to Divide Military Pension;

g.

Determine the amount of back military pension payments due to Petitioner;

h.

Determine the amount of interest and principal due to Respondent;

i.

Permit Father to satisfy the amounts due to
Respondent in Paragraph 5 by an offset
against the amount due to Petitioner in Paragraph 4;

j.

Set a reasonable payment plan for any
amounts still due to a party after the offset;
and

k.

Provide other relief as the Court deems just
and reasonable.

Father filed an Amended Notice of Motion and Motion on May 25, 2018. At that time, Father also
filed an Order to Divide Military Pension to effectuate the division of Respondent’s military pension pursuant to the parties’ property decree.

15a
6.

On May 25, 2018, Mother filed Respondent’s Notice of Motion and Motion with the Court. In that
motion, Mother requested that the Court:
a.

Find Father in contempt of court by failing to
obey the April 3, 2017 order;

b.

Reopen the November 3, 2017 4:41 p.m. judgment against Petitioner for $4,095.12 on the
grounds of mistake, and clarify that judgment
was entered on January 27, 2017 and interest
began accumulating on January 27, 2017;

c.

Reopen November 3, 2017 4:07 p.m. judgment
against Petitioner for $4,500 on the grounds
of mistake, and enter a Judgment against Petitioner in favor of Respondent for $4,500.00
dated August 28, 2017, with interest to begin
accumulating on August 28, 2017;

d.

Compel Petitioner to answer all of the Interrogatories and Request for Production of Documents served on him on August 28, 2017;

e.

Limit Petitioner’s interest in Respondent’s
military retirement pay to a percentage of Respondent’s “disposable retired pay” based on
Respondent’s formula;

f.

Order that payment of Petitioner’s portion of
Respondent’s military retirement does not
commence until after Petitioner pays Respondent money he owes to Respondent from
the January 27, 2017 and April 3, 2017 orders;

g.

Require Petitioner to reimburse Respondent
for attorney fees, court costs, mediation fees,
travel expenses, and other expenses;

16a

7.

h.

Require Petitioner to reimburse Respondent
for parenting consultant fees incurred in
2017-2018 related to Petitioner’s unreasonable requests for reconsideration of decisions or
consideration of additional information; and

i.

Provide other relief that the Court deems just
and equitable.

At the hearing on June 11, 2018, the parties argued several issues before the Honorable Bridget
Sullivan: (1) whether the Court should overrule
the parenting consultant’s decisions from February 7, 2018 and February 9, 2018; (2) what valuation is proper for Mother’s military pension plan;
and (3) whether Father should pay Mother’s attorney fees. Mother also requested that the Court
schedule a Hop-Hernandez hearing.

Parenting Consultant
8.

In 2013, the parties agreed to an order appointing
a parenting consultant (“PC Order”). The parties
selected Lisa Kallemeyn as the parenting consultant (“PC”).

9.

The PC Order provides the PC authority to decide
a wide range of issues including, but not limited
to, awarding compensatory time if a parent interferes with custodial or access rights, deciding parenting issues that the parties did not contemplate,
altering the access schedule, and requiring independent evaluations and psychological testing of
the parties, their significant others, and/or child,
and imposing consequences for non-compliance
with court orders and/or PC decisions. (Stipulated

17a
Order Appointing Parenting Consultant at 1–3).
The PC’s authority has limits. The PC does not
have “the authority to decide financial issues or
modification of custody.” (Id. at 1).
10. If a party disagrees with PC’s decision, the Paragraph 1(d) of the PC Order requires that a party
provide written notice of a court hearing date
within fourteen days of receiving the PC’s written
decision. (Id. at 3).
11. Since her appointment, the PC has issued five reports that have been filed with the Court. In the
April 2017 report, the PC identified interference
with video time as “a longstanding, ongoing situation.” (Report of the Parenting Consultant, dated
April 20, 2017 at 1). The PC awarded Mother two
days of parenting time “as a result of the missed
January parenting time.” (Id.).
12. In May 2017, the PC issued another report at the
request of Mother. The PC awarded Mother “an
additional day” of parenting time because Father’s
new wife, Jodi Dillahunt, interrupted video chat
time. (Report of the Parenting Consultant, dated
May 2, 2017 at 1). To be sure, the PC identified
“three incidents of bad behavior: Ms. Mitchell soliciting information from XXXXX about a possible
new home, Ms. Dillahunt listening in on this chat,
and then interrupting video chat time.” (Id. at 2).
In awarding Mother additional parenting time,
the PC considered that the interference with video
time was a pattern, not a “one-time event.” (Id. at
3).
13. In January 2018, the PC reported on a missed call
on New Year’s Day. Of particular note, the PC

18a
emphasized that “[l]ate or missed phone calls have
been an ongoing problem.” (Report of Parenting
Consultant Regarding Telephone/Facetime Contact at 2). In addressing the seriousness of these
missed calls, the PC noted that she was “not going
to treat violations of ‘informal’ arrangements as
strong as the court-ordered phone calls, and am
not awarding any compensatory time or additional
visitation day for this instance.” (Id.). She concluded by adding that “[l]ate times will be treated
from now on as they were in the past.”
14. On February 7, 2018, the PC awarded Mother “an
additional day” of parenting time in response to a
late phone call with Mother. Mother and the child
had a phone call scheduled for 7:30 p.m. CST. (Report of the Parenting Consultant, dated February
7, 2018 at 1). The standard video time is usually
8:30 p.m. CST. They did not talk until 8:42 p.m.
CST. (Id.) The PC reasoned that she would not
“interfere” with missed times based on informal
agreements and, so, determined that Mother
missed twelve minutes rather than an hour and
twelve minutes. (Id.) In concluding that Mother
should be awarded additional parenting time, the
PC highlighted the “longstanding and ongoing acrimony between the parties” and that “[t]his incident occurred very close to [the PC’s] previous
report.” (Id. at 2).
15. Shortly after the February 2018 report, Father
asked the PC to reconsider her decision and provided the PC with additional information. The PC
issued a supplement report on February 9, 2018.
Again referencing the “long history of animosity
toward each [party],” the PC emphasized that

19a
“strict guidelines and consequences” were necessary. (Supplemental Report of Parenting Consultant,
dated February 9, 2018 at 1). After considering the
new information, the PC maintained her decision.
16. On February 23, 2018, Father filed a Notice of Motion and Motion that included notice of a court
hearing date on June 11, 2018.
History of the Military Pension
17. Mother served in the United States Army from October 1, 1996 to October 1, 2016. She has the rank
of Major and pay grade O-4. After her retirement
in October 2016, Mother received her first payment of her military pension in November 2016.
That gross amount of that payment was $3,696.00
per month. Mother also receives $1,534 per months
[sic] in disability compensation. That disability
compensation is not deducted from her military
pension payments.
18. In January 2017, the parties agreed to modify
Mother’s child support obligations based on Mother’s
monthly income of $3,696, which is the entirety
of Mother’s military pension payments. Mother’s
child support obligation was set at $387 per
month.
19. At the hearing, Mother stated that her disability
rating on August 24, 2006, was forty percent. She
also stated that her disability rating was currently
ninety percent.
20. In a letter dated January 12, 2017, the Department of Veterans Affair [sic] informed Mother about
her disability rating: 0% assigned for degenerative

20a
arthritis, status post fractures, index and long finger, left hand, 10% assigned for degenerative
arthritis, right wrist, 40% assigned for temporomandibular joint degeneration with bruxism, 10%
assigned for urticarial, 30% assigned for insomnia
disorder, 0% assigned for migraine headaches, 0%
assigned for degenerative arthritis with iliotibial
band friction syndrome, right knee, 0% assigned
for menorrhagia with pelvic pain and dyspareunia,
0% assigned for sprain, left ankle, 10% assigned
for hypothyroidism, 10% assigned for thoracic
strain, 0% for allergic rhinitis, and 0% tendonitis,
right ankle.
21. In a Rating Decision by the Colorado Division of
Veterans Affairs dated September 28, 2017, the
Department of Veterans Affairs stated that (1) service connection for plantar fasciitis of the right
foot is granted with an evaluation of 30 percent;
(2) evaluation of right knee degenerative arthritis
with patellofemoral syndrome is increased from 0
percent disabling to 10 percent; (3) evaluation of
right ankle tendonitis is increased from 0 percent
disabling to 10 percent; (4) evaluation of menonhagia is increased from 0 percent disabling to 10
percent; (5) evaluation of hypothyroidism is continued at 10 percent disabling; and (6) a decision
on alpha gal syndrome is deferred. The document
provided to the Court was redacted.
22. In March 2008, the Judgment and Decree reserved
the property settlement. (Judgment and Decree at
20). A month later, the parties agreed to divide Respondent’s interest in a U.S. Army Retired Pay
Plan. Paragraph 10 of the Findings of Fact of the

21a
Stipulation and Order Regarding Property Issues
(Stipulated Order) stated:
10. Each of the parties have retirement
accounts in his or her own name. The description and value thereof is set forth in
Exhibit A attached hereto. In addition,
Respondent has an interest in a US Army
Retired Pay Plan which the parties agree
should be divided so as to award to Petitioner one-half of the martial portion of
said plan. (Stipulation and Order Regarding Property Issues, dated April 2, 2008
at 2).
23. Father was responsible for drafting the Order Dividing Respondent’s Military Pay. The Stipulated
Order states:
6. MILITARY RETIRED PAY. Petitioner’s attorney shall be responsible for
the drafting of an Order Dividing Respondent’s Military Pay. The Order Dividing Respondent’s Military Pay shall be
sent to Respondent’s attorney for approval as to form and content prior to submitting it to the Court for entry. The
Court shall specifically retain jurisdiction
over the parties to establish or maintain
the Order Dividing Military Pay. (Id. at 8).
24. Prior to Father’s motion, the parties did not submit an Order to Dividing Respondent’s Military
Pay. When Father filed his amended motion on
May 25, 2018, he filed a Military Retire Pay Order.

22a
Contempt
25. On May 17, 2018, the Court signed an Order to
Show Cause and Appear that ordered Father to
appear at the hearing on June 11, 2018, and to
show cause as to why the Court should not enter
an Order finding him in Contempt of Court. Father
was served a copy of the Order to Show Cause and
Appear on May 18, 2018. Mother did not file the
Order to Show Cause and Appear until June 21,
2018.
26. At the June 11, 2018 hearing, the parties requested a contempt hearing. An Order to Show
Cause hearing was set for July 24, 2018. On July
19, 2018, the parties agreed to cancel the Order to
Show Cause hearing because Father has paid the
attorney fee judgment in full. The Court canceled
the hearing.
Conclusions of Law
Parenting Consultant’s Decision
27. The standard for reviewing parenting consultant
decisions is unsettled law. Kerr v. Kerr, 2013 WL
11859116 at *4 (Minn. Ct. App. May 6, 2013) (“Appellate courts have not yet considered the amount
of deference, if any, that a district court must provide to a parenting consultant’s decision implicating a child’s best interests.”). Even when the
parties agree to a parenting consultant, a district
court maintains the authority to decide parenting
time. Minn. Stat. § 518.175. A court shall modify a parenting time order if it is in the child’s
best interest and does not change their primary

23a
residence. Minn. Stat. § 518.175, subd. 5. This
Court agrees with the Minnesota Court of Appeals
in Kerr. When reviewing the PC’s decision, the
Court “must ensure that such decisions are in the
best interests of the children.” Id. at *5 (citing Kaiser v. Kaiser, 186 N.W.2d 678, 683 (Minn. 1971)).
28. In Minnesota, it is settled law that the party seeking modification of a previous order granting parenting time bears the burden of establishing that
the modification is in the child’s best interest. Griffin v. Van Griffin, 267 N.W.2d 733, 735 (Minn.
1978). Here, although Father is appealing the
PC’s decision, compensatory parenting time would
modify the previous order granting parenting
time. Accordingly, this Court finds that Mother
must show that a modification is in the child’s best
interest.
29. After review of record in this case, including the
PC’s reports, this Court finds that the PC’s decision is in the best interest of the child for two reasons. First, a lack of “stringent consequences”
could harm the child’s relationship with both parties. As the PC noted, the parties have a “long history of animosity towards each other.” The PC
reasoned that, “if [she] did not follow through with
a consequence,” the problem between the parties
would continue to get worse. In her January report, which provides context for the PC’s February
decision, the PC emphasized that it is time to “assure that Dylan and her mother maintain a close
relationship.”
30. Second, the Court considers the weight of the
PC’s recommendation in favor of the child’s best

24a
interest. In determining whether the PC’s decision
is in the best interest of the child, this Court considers “the recommendation of the parenting consultant as a third party neutral.” To be sure,
Minnesota law does not require that the Court
give that decision deference. Kerr, 2013 WL
11859116 at *5. But, in a case where the PC has
extensive history with the parties—dating back to
2013 and five reports—the Court finds that PC’s
experience with the parties provides her context
and, accordingly, the Court weighs that experience
favorably.
31. In sum, the Court finds that the PC’s decision to
award Mother one compensatory day of parenting
time is in the best interest of the child. As a result,
the Court finds that it will not reverse the PC’s decision.
Removal of Parenting Consultant
32. This Court first determines the standard for the
removal of a parenting consultant. Petitioner argues that a court has the authority to remove a PC
based on the best interests of the child or for other
legitimate non-best-interests related reasons. Respondent contends that a parenting consultant
can only be removed for good cause. The Court
agrees with Petitioner.
33. Under Minnesota law, a court may remove a parenting consultant either in the best interest of the
child or for “legitimate non-best-interests-related
reasons.” In Szarzynski v. Szarzynsk [sic], the court
considered the standard for removal of a parenting
consultant. 732 N.W.2d 285 at 293 (Minn. Ct. App.

25a
2007). Like this case, the petitioner in Szarzynski
argued that the standard was good cause. The
Minnesota Court of Appeals found that “good
cause” applied to “parenting-time expediter[s],”
which are “creature[s] of statute.” Id. In contract
[sic], nonstatutory parenting consultants are “distinct” from those statutory “parenting-time expediters.” Id. The Szarzynski court concluded that a
parenting time consultant may be removed for either “good cause” or in the best interest of the
child. Id. at 293–94 (“Because there can be legitimate reasons to remove or replace a parenting consultant that do not directly bear on the
child’s best interest (e.g., illness of the consultant),
to preclude a court from removing a parenting
consultant for legitimate non-best-interest-related
reasons would be absurd.”).
34. Petitioner’s position, however, does not justify the
removal of the PC because he does not prove that
removal of the PC would satisfy either of those
reasons. Father contends that the PC’s decision is
“the result of a pattern of the PC’s bias against Petitioner and unfair tendency to make decisions
based on insufficient information resulting in decisions that are not in the child’s best interest.” To
support his position that the PC is unfair, Father
points to two statements in the PC’s January 2018
report. The first is the PC’s statement that “[i]t is
time to start loosening some of the phone call requirements.” The second is her statement that
she is “not going to treat violations of ‘informal’
arrangements as strongly as the court-ordered
phone calls, and [is] not awarding any compensatory time or additional visitation day for this instance.” The Court disagrees. Those statements do

26a
not show that the PC is unfair. Instead, the PC’s
reasoning shows that her remedies are measured—rather than “overly harsh” for three reasons.
35. First, the PC is consistent in her approach to informal arrangements. In the January report, the
PC was setting the parties’ expectation for how
she would handle violations of informal arrangements. The incident that instigated the February
reports is a violation of “court-ordered times.”
(February 7, 2018 Report at 1). In other words, the
PC expressed her willingness to be lenient with violations of informal arrangements but did not intend to extend that courtesy to violations of courtordered times. In the February incident, Mother
alleged that she lost one hour and 12 minutes of
the chat time. But because the change in time—
which contributed to an hour of the lateness—was
based on an informal agreement, the PC declined
to interfere with the informal arrangement. This
is consistent with the PC’s decision in the January
report.
36. Second, the PC’s decision is consistent with her
warning in the January 2018 report. In that report, she advised the parties that “[l]ate times will
be treated from now on as they were in the past.”
(January 18, 2018 Report at 2). In the past, the PC
has awarded Mother compensatory parenting
time for violations of court-ordered time. See (May
2, 2017 Report at 1). Given the acrimonious history between the parties and the PC’s prior decisions, the PC alerted the parties that violations of
court-ordered time could lead her to award compensatory parenting time.

27a
37. Third, the proximity of the February 2018 incident
to the January report contributed to the PC’s decision about the severity of the consequence. In the
February 7, 2018 report, the PC highlighted that
the incident “occurred very close to [her] previous
report.” (February 7, 2018 Report at 2). The PC’s
decision to factor in the recency of the January incident was reasonable, and does not show that the
PC is biased.
38. Accordingly, this Court finds that it should not remove the PC because Petitioner has not shown
that removal of the PC would be in the best interest of the child or that it would serve a legitimate
non-best-interest-related reason.
Father’s Portion of Mother’s Military Pension
39. The parties do not dispute that Respondent must
pay Petitioner half of the marital portion of her
military pension. Additionally, the parties agree
on the following aspects about Respondent’s military pension plan: (1) Respondent’s Survivor Benefits Plan (SBP) premiums should not be deducted
from the “gross” retired pay because Petitioner is
not her beneficiary; and (2) Petitioner’s interest
should include a Cost of Living Adjustment. Instead, the parties disagree on the size of that
Father’s interest in the pension. To determine Petitioner’s amount of the military pension, the
Court determine [sic] the valuation date of the
pension, the size of the marital portion of the pension, and the formula to divide the pension.
40. First, the valuation date is the date of the Initial
Case Management Conference. The Honorable

28a
Judge James T. Swenson issued a standing order
in 2003 that stated, “The statutory valuation date
in the Fourth Judicial District shall remain the Initial Case Management Conference as announced
when the case management program began.” This
is consistent with Minnesota law. See Minn. Stat.
§ 518.58, subd. 1. Here, the Court held an ICMC
on August 24, 2006. Accordingly, the valuation
date is August 24, 2006.
41. Next, the Court considers the size of the marital
portion of the military pension. Father is only entitled to “one-half of the marital portion” of the
pension, as opposed to a portion of the entire pension. To determine the marital portion of the pension, the Court looks to the Uniformed Services
Former Spouses Protection Act (USFSPA). 10 U.S.C.
§ 1408.
42. USFSPA allows a court to treat disposable retired
pay “as property of the member and his spouse
in accordance with the law of the jurisdiction of
such court.” “Disposable retired pay” is the total
monthly retired pay minus certain deductions. See
10 U.S.C. § 1408(a)(4)(A). The relevant deduction
here is amounts deducted from the retired pay “as
a result of a waiver of retired pay required by law
in order to receive compensation under title 5 or
title 38.” Id. One such required waiver is for duplicative payments, such as disability compensation,
under title 35. See 38 U.S.C. § 5305.
43. Here, Mother contends that her disability compensation should not be included in the marital portion of the pension. To be sure, generally, disability
compensation of a military pension is not “among

29a
the military benefits that may be divided as marital property.” Mattson v. Mattson, 903 N.W.2d 233,
241 (Minn. Ct. App. 2017); see also 10 U.S.C.
§ 1408(4)(A).1 But that limitation only applies if
the disability compensation is received “as a result
of a waiver of retired pay.” 10 U.S.C. § 1408(4)(A).
To determine whether Mother’s disability compensation is excluded from marital property, the Court
must determine whether Mother’s disability compensation is received as a result of a waiver.
44. Whether disability compensation requires a waiver
is determined by the disability rating of the party.
Generally, 38 U.S.C. § 5305 requires a person in
the Armed Forces to waive a portion of their
retired pay “equal in amount” to disability compensation. 38 U.S.C. § 5305. But, under the Concurrent Retirement and Disability Pay (CRDP),
that member of the Armed Forces can avoid that
waiver—and as a result is entitled to both retired
pay and disability compensation. To qualify for the
exemption in the CRDP, a member of the Armed
Forces must have a disability rating that is higher
than 50%. 10 U.S.C. § 1414(a)(2).
45. Under the CRDP, Mother is entitled to receive her
retired pay and disability compensation without
waiving a portion of the retired pay equal to that
disability compensation. When Mother retired
1

Mother also argues that “all court orders and property
agreements requiring indemnification for reduction in the marital
portion of retired pay due to waiver to receive VA disability compensation” are void. Her argument does not apply to the Stipulated Order because, as discussed above, the Stipulated Order
does not require that Mother pay Father the portion of the pension offset by a waiver received for disability compensation.

30a
from the Armed Forces, her disability rating exceeded 50%. There is no dispute that Mother receives her retired pay and disability compensation
without an offset.
46. But Mother argues that Father should not benefit
from the increase in her disability rating. In 2006,
Mother’s disability rating was 40%. So, if Mother
had retired in 2006, she would have had to waive
a portion of her retired pay equal to her disability
compensation. Although Mother’s disability rating
is different in 2018 than it was in 2006, it is the
amount of disability compensation that Mother
actually receives—not the amount she theoretical
[sic] could have received in 2006—that is excluded
by federal law. Although, as Mother states, she had
“the right on August 25, 2006 to make the unilateral election” for disability compensation, she did
not make such an election on that date. Captain
Crane’s assessment is consistent with this conclusion. Accordingly, this Court finds that Mother’s
disability compensation should not be excluded
from the marital portion of the pension.
47. At the hearing, Mother raised a concern that the
disability rating could be reassessed and, as a result, her disability rating could drop below 50%. If
that were to happen, Mother would have to waive
a portion of her retired pay equal to her disability.
If such an event were to occur, Mother could request that this Court deduct the offsetting waiver
amount from her payment.
48. Because Mother did not designate Father as her
SBP beneficiary, the SBP premiums deducted from
Mother’s military retire pay are not deductible

31a
from Mother’s gross retired pay for the purposes of
determining Father’s interest in her military retire pay.
49. Finally, now that the Court has established the
valuation date of the pension and the marital portion of the pension, the Court must determine the
formula to use to divide the pension. Mother contends that the Court should use the “hypothetical
retired pay” formula in the USFSPA. Father argues that the Court should use the coverture formula from Janssen. The Court finds that the
coverture formula should be used here.
50. The “hypothetical retired pay” formula was added
to the USFPA [sic] in 2017. Under the “hypothetical retired pay” formula, in dissolution cases that
occur prior to a member’s retirement, the 2017 version of the USFSPA requires that the total monthly
retired pay is “the amount of retired pay to which
the member would have been entitled using the
member’s retired pay base and years of service on
the date of the decree of divorce” including a costof-living adjustment. 10 U.S.C. § 1408(a)(4)(B).2
51. To be sure, if the parties’ facts were set in 2018
rather than 2008, the “hypothetical retired pay”
formula would govern. But because the USFSPA
was amended between the date of the final decree
and Father’s motion, this Court considers whether
the amended version of USFSPA controls. It concludes that it does not.

2

There is a different formula for retired pay for non-regular
service, but neither party argues that chapter 1223 applies to
Mother. See 10 U.S.C. § 1408(a)(4)(B)(ii); see also 10 U.S.C. § 1223.

32a
52. The amended version of the USFSPA, which requires application of the “hypothetical retired pay”
formula, does not apply to Mother’s pension because the parties agreed on the division of the pension in 2008 by stipulation. True, Father never
provided the Court with an Order Dividing Military Pay. But stipulations are binding on the
parties. Furthermore, the valuation date of the
military pension is August 24, 2006. Because the
USFSAP [sic] did not require the “hypothetical retired pay” formula until over a decade after the
valuation date and stipulation of the parties, this
Court finds that it does not have to apply that
formula.
53. Because USFSPA did not require the “hypothetical retired pay” formula in 2006, the Court uses
the coverture formula. Under that formula, when
the present value of a pension is uncertain, then a
court may “[a]pportion[ ] the future benefits only if
and when they are paid” using the formula in
Janssen v. Janssen. 331 N.W.2d 752, 756 (Minn.
1983). The Janssen formula is the number of
months of marriage during which benefits were
being accumulated over the total number of
months during which benefits were accumulated
prior to when paid. Id.
54. Before the Court uses the Janssen formula, it
must determine whether the present value of the
pension is uncertain. The Court concludes that the
value of the pension on August 24, 2006 was uncertain for two reasons. First, on August 24, 2006,
the parties could not have valued Mother’s pension with a “hypothetical retired pay” formula
because that formula did not exist. Second, the

33a
parties did not know what Mother’s disability rating would be when she retired. As the facts here
show, Mother’s disability rating could fluctuate
based on developments after August 2006. As
Mother concedes, some of her disability ratings
were set for review by the Department of Veteran
Affairs because they were “temporary” conditions.
In sum, the parties could not have determined
Mother’s disability rating at retirement in August
2006. Because Mother’s disability rating was uncertain, the present value of the military pension
was uncertain. As discussed above, the marital
portion of Mother’s pension depends on Mother’s
disability rating. Accordingly, the Court finds that
the value of the pension on August 24, 2006, was
uncertain.
55. To be sure, the parties were married from August
1997 to March 2008. That is 127 months. But, to
determine the number of months of marriage accumulating the pension, the Court should use the
valuation date—in August 2006—instead of the
date of dissolution. So, the numerator of the
Janssen formula is 108 months. The total number
of months during which the benefits were accumulated prior to when paid is 240 months—or twenty
years. Mother served in the U.S. Army for twenty
years before retiring. So, the marital interest in
the military pension is 108 over 240 or 45%. Under
the Stipulated Order, Father is entitled to half of
the marital interest of the military pension. Accordingly, Father is entitled to 22.5% of the military pension.

34a
56. In sum, this Court finds that Father is awarded
22.5% of Mother’s military pension, or $831.60 per
month, in addition to cost-of-living adjustments.
Retroactive Payments
57. Mother contends that Father is not entitled to retroactive payments of his marital portion of the
pension for two reasons. The first reason is that
the statute of limitations bars Father’s action. The
second is that the doctrine of laches precludes retroactive payments.
58. The statute of limitations does not bar retroactive
payments to Father. Minn. Stat. § 541.04 mandates that “[n]o action shall be maintained upon a
judgment or decree of a court of the United States,
or of any state or territory thereof, unless begun
within ten years after the entry of such judgment.”
Minn. Stat. § 541.04. Judgment was entered in
this case on March 26, 2008. But, the payment of
the military pension was reserved in the dissolution. Instead, the parties agreed to the military
pension by stipulation filed on April 2, 2008. Using
either date, Father had until at least March 26,
2018, to fall within the ten-year period of Minn.
Stat. § 541.04. Because Father filed his motion on
February 23, 2018 and Mother was served with a
copy of the Notice of Motion on February 27, 2018,
the Court finds that Father began this action before within ten years of judgment.
59. Laches is “such negligence in bringing an action or
otherwise asserting one’s right as will preclude
him from obtaining equitable relief.” Corah v. Corah, 75 N.W.2d 465, 357 (Minn. 1956). “It is well

35a
settled in [Minnesota] that a party is barred by
laches when the delay is so long and the circumstances of such character as to establish a relinquishment or abandonment of rights.” Id.
60. Father argues that laches does not apply if the delay caused no harm or prejudice to the other party.
But, Father does not respond to Mother’s position
that Father’s delay prejudiced her in two ways.
The first is that the she has already paid federal
and state income taxes on the military pension
payments from 2016 through 2017. To be sure,
Mother is prejudiced if she had to make retroactive payments of the military pension without adjustments for federal and state income taxes that
she paid on Father’s portion.
61. Mother’s second, and more compelling, reason is
that Mother pays child support based on an income that assumes that she receives the entirety
of her monthly pension. At the time that the parties agreed to the child support payments in January 2017, Father knew about Mother’s pension
payments. The parties used those pension payments as Mother’s income. Father has received
child support payments in the amount of $387 per
month. If Father received his portion of the military pension, Mother’s income would be lower and,
as a result, her child support obligations would
also decrease. Because Mother paid higher child
support amounts from October 1, 2016 through
2017 than she would have if Father received his
portion of the pension, this Court finds that
Mother would be prejudiced by retroactive payments.

36a
62. Because Mother would be prejudiced by retroactive payments of Father’s portion of the military
pension, the Court finds that the doctrine of laches
precludes retroactive payments.
63. The extent to which Father’s negligence forfeits
his rights is limited to the payments of the military pensions in 2016 through 2017. During that
time, Mother paid federal and state taxes and paid
higher child support because Father did not submit an order to divide the military pension. Father
knew of Mother’s pension payments. He does not
present a reason for his delay. But, it would be unfair for this Court to determine that Mother must
make payments on Father’s marital portion of the
military pension beginning in 2018. Mother is not
prejudiced by an outcome because, as Father noted
in the hearing, Mother can motion this Court to
modify child support.
64. In addition to an award of Mother’s military pension, Father also requests that this Court award
the Father interest on the pension payments from
2016 through 2018. Minn. Stat. § 549.09 adds interest from the time of the award until judgment
is finally entered to the award. Minn. Stat.
§ 549.09, subd. 1(a). The Minnesota Court of Appeals found “no reason” that this interest would
not apply to an award of money in a dissolution
action. Riley v. Riley, 385 N.W.2d 883, 888 (Minn.
Ct. App. 1986). But, because this Court finds that
retroactive payments are precluded by the doctrine of laches, there is no retroactive payments to
accrue interest.

37a
Psychological Evaluation
65. When the parties agreed to a PC in 2013, that
agreement provided the PC with the authority to
decide whether to “[r]equire independent and psychological testing of the parties, their spouses/
significant others, and/or child.” In his motion, Father requests that this Court circumvent the PC’s
authority by ordering a brief focused evaluation
and written report by psychologist Kirsten Lysne.
Mother argues that Father must present his request to the PC before the Court can decide it.3 The
Court agrees with Mother.
66. The PC Order requires the parties to “present [disputed issues] to the PC for resolution.” Father did
not use the PC to resolve his dispute over the brief
focused evaluation and written report. Courts favor stipulation “as a means of simplifying and expediting litigation, and to bring resolution to what
frequently has become an acrimonious relationship between the parties.” Shirk v. Shirk, 561
N.W.2d 519, 521 (Minn. 1997). This Court will not
undermine the “sanctity of binding contracts” by
circumventing the process that the parties agreed
upon. Id. Accordingly, Father’s request for a brief
focused evaluation with a written report should be
denied by [sic] Father did not attempt to bring the
issue to the PC prior to raising it before the Court.

3

To support her position, Mother references a quote from
Grodnick v. Velick that the Court was unable to find. No. A
1241382, 2012 WL 4856202 (Minn. Ct. App. Oct. 15, 2012). The
quotation does not appear in Grodnick nor does it appear on a
search of the quotation in Westlaw.

38a
Conduct-Based Attorney Fees
67. Minn. Stat. § 518.14 allows a district court to
award attorney fees and costs against a party
“who unreasonably contributes to the length or
expense of the proceedings.” These conduct-based
fees may be awarded “based on the impact a
party’s behavior has had on the costs of the litigation regardless of the relative financial resources
of the parties.” Dabrowski v. Dabrowski, 477
N.W.2d 761, 766 (Minn. Ct. App. 1991).
68. After considering the record and history of this
case, the Court finds that Father did not unreasonably contribute to the length or expense of the proceedings. The parties appeared before the Court
because of Father’s disagreement with the PC’s decision. Because the PC Order provides for district
court review, Father’s request for such a hearing
does not “unreasonably” contribute to the length
or expense of the proceedings.
69. Mother contends that she should receive conductbased fees because of [sic] Father contributed to
the length and expense of the proceedings related
to the military pension. To be sure, Father did not
diligently submit an Order Dividing Respondent’s
Military Pay to the Court. But the Stipulated Order also states that such an order “shall be sent to
Respondent’s attorney for approval as to form and
content prior to submit it to the Court for entry.”
As the parties stated at the hearing, the parties
have had discussions about the size of Father’s
portion of the military pensions over the past
few years. The parties have been unable to reach
an agreement outside of court. Because the

39a
Stipulated Order would not have permitted Father
to submit an order without Mother’s agreement,
and the parties’ position on the military pension is
so divisive, this Court finds that Father did not unreasonably contribute [sic] the length and expense
of the proceedings related to the military pension.
70. The remainder of Mother’s reasons for conductbased fees do not support a finding that Father
“unreasonably contribute[d] to the length or expense
of the proceedings.” Instead, Mother’s allegations
represent reasonable disagreements between acrimonious parties during civil litigation. Accordingly, this Court finds that Father’s actions did not
unreasonably contribute to the length or expense
of the proceedings and, as a result, Mother is not
entitled to conduct-based fees.
NOW, THEREFORE, based upon the files, proceeding herein, the Court makes the following:
Order
1.

Father’s motion to overrule the Report of Parenting Consultant dated February 7, 2018 and the
Supplemental Report of Parenting Consultant
dated February 9, 2018 is DENIED.

2.

Father’s motion to remove Lisa Kallemyn [sic] as
the parties’ parenting consultant is DENIED.

3.

Beginning July 1, 2018, Father shall be awarded
22.5% of Mother’s military pension monthly payments, including cost-of-living adjustments.

4.

Father’s motion to award Father with retroactive
payments of his portion of the military pension

40a
from October 1, 2016, along with judgment rate interest, is DENIED.
5.

Father’s motion for an order directing the parties
to obtain a brief focused evaluation by psychologist Kirsten Lysne with a written report is DENIED.

6.

Mother’s request for conduct-based fees covering
attorney fees, travel expenses, and other expenses
is DENIED.

7.

Mother’s request for reimbursement of parenting
consultant fees incurred in 2017-2018 related to
Father’s request for reconsideration of the PC’s decision is DENIED.

8.

All other provisions of prior and consistent orders
shall remain in full force and effect.

9.

Attorneys Using E-Filing. When e-filing into
this case, attorneys shall email a courtesy copy to
4thJudgeBurnsStaff@courts.state.mn.us.

10. Service. Service of a copy of this order shall be
made upon pro-se parties by first class U.S. mail
at their last known addresses, or to attorneys by
e-service, which shall be due and proper service for
all purposes.
It is so ordered . . .
Dated: September 10, 2018 _______________________
Bridget A. Sullivan
Judge of District Court

41a
STATE OF MINNESOTA
IN SUPREME COURT
A18-1651
In re the Marriage of:
Thomas M. Dillahunt,
Respondent,
vs.
Tami L. Mitchell, f/k/a Tami L. Dillahunt,
Petitioner.
ORDER
(Filed Sep. 17, 2019)
Based upon all the files, records, and proceedings
herein,
IT IS HEREBY ORDERED that the petition of
Tami L. Mitchell for further review be, and the same
is, denied.
Dated: September 17, 2019
BY THE COURT:
/s/ Lorie S. Gildea
Lorie S. Gildea
Chief Justice

42a
1.

10 U.S.C. § 1407 (2006) provides:

10 U.S.C. § 1407. Retired pay base for members
who first became members after September 7,
1980: high-36 month average
(a) Use of Retired Pay Base in Computing Retired
Pay.—The retired pay or retainer pay of any person entitled to that pay who first became a member of a uniformed service after September 7, 1980, is computed
using the retired pay base or retainer pay base determined under this section.
(b) High-Three Average.—[T]he retired pay base or
retainer pay base of a person under this section is the
person’s high-three average determined under subsection (c). . . .
(c) Computation of High-Three Average for Members
Entitled to Retired or Retainer Pay for Regular Service.—
(1) General rule.—The high-three average of a member entitled to retired or retainer pay . . . is the amount
equal to—
(A) the total amount of monthly basic pay to which
the member was entitled for the 36 months (whether
or not consecutive) out of all the months of active service of the member for which the monthly basic pay to
which the member was entitled was the highest, divided by
(B)

36.

43a
2. Uniformed Services Former Spouses’ Protection
Act, 10 U.S.C. § 1408 (2017) provides:
10 U.S.C. § 1408. Payment of retired or retainer
pay in compliance with court orders
(a)

Definitions.—In this section:

(1)

The term “court” means—

(A) any court of competent jurisdiction of any State,
the District of Columbia, the Commonwealth of Puerto
Rico, Guam, American Samoa, the Virgin Islands, the
Northern Mariana Islands, and the Trust Territory of
the Pacific Islands;
(B) any court of the United States (as defined in section 451 of title 28) having competent jurisdiction;
(C) any court of competent jurisdiction of a foreign
country with which the United States has an agreement requiring the United States to honor any court
order of such country; and
(D) any administrative or judicial tribunal of a State
competent to enter orders for support or maintenance
(including a State agency administering a program under a State plan approved under part D of title IV of
the Social Security Act), and, for purposes of this subparagraph, the term “State” includes the District of Columbia, the Commonwealth of Puerto Rico, the Virgin
Islands, Guam, and American Samoa.
(2) The term “court order” means a final decree of divorce, dissolution, annulment, or legal separation issued
by a court, or a court ordered, ratified, or approved

44a
property settlement incident to such a decree (including a final decree modifying the terms of a previously
issued decree of divorce, dissolution, annulment, or
legal separation, or a court ordered, ratified, or approved property settlement incident to such previously
issued decree), or a support order, as defined in section
453(p) of the Social Security Act (42 U.S.C. 653(p)),
which—
(A) is issued in accordance with the laws of the jurisdiction of that court;
(B)

provides for—

...
(iii) division of property (including a division of community property); and
(C) in the case of a division of property, specifically
provides for the payment of an amount, expressed in
dollars or as a percentage of disposable retired pay,
from the disposable retired pay of a member to the
spouse or former spouse of that member.
(3) The term “final decree” means a decree from
which no appeal may be taken or from which no appeal
has been taken within the time allowed for taking such
appeals under the laws applicable to such appeals, or
a decree from which timely appeal has been taken and
such appeal has been finally decided under the laws
applicable to such appeals.

45a
(4) (A) The term “disposable retired pay” means the
total monthly retired pay to which a member is entitled less amounts which—
...
(iii) in the case of a member entitled to retired pay
under chapter 61 of this title, are equal to the amount
of retired pay of the member under that chapter computed using the percentage of the member’s disability
on the date when the member was retired (or the date
on which the member’s name was placed on the temporary disability retired list); or
(B) For purposes of subparagraph (A), in the case of a
division of property as part of a final decree of divorce,
dissolution, annulment, or legal separation that becomes final prior to the date of a member’s retirement,
the total monthly retired pay to which the member is
entitled shall be—
(i) in the case of a member not described in clause (ii),
the amount of retired pay to which the member would
have been entitled using the member’s retired pay base
and years of service on the date of the decree of divorce,
dissolution, annulment, or legal separation, as computed under section 1406 or 1407 of this title, whichever is applicable, increased by the sum of the cost-ofliving adjustments that—
(I) would have occurred under section 1401a(b) of
this title between the date of the decree of divorce,
dissolution, annulment, or legal separation and the
time of the member’s retirement using the adjustment

46a
provisions under section 1401a of this title applicable
to the member upon retirement; and
(II) occur under 1401a of this title after the member’s
retirement; or
...
(5) The term “member” includes a former member entitled to retired pay under section 12731 of this title.
(6) The term “spouse or former spouse” means the
husband or wife, or former husband or wife, respectively, of a member who, on or before the date of a court
order, was married to that member.
(7)

The term “retired pay” includes retainer pay.

(b) Effective Service of Process.—For the purposes of
this section—
...
(c) Authority for Court To Treat Retired Pay as Property of the Member and Spouse.—
(1) Subject to the limitations of this section, a court
may treat disposable retired pay payable to a member
for pay periods beginning after June 25, 1981, either
as property solely of the member or as property of the
member and his spouse in accordance with the law of
the jurisdiction of such court. A court may not treat retired pay as property in any proceeding to divide or
partition any amount of retired pay of a member as the
property of the member and the member’s spouse or
former spouse if a final decree of divorce, dissolution,

47a
annulment, or legal separation (including a court ordered, ratified, or approved property settlement incident to such decree) affecting the member and the
member’s spouse or former spouse (A) was issued before June 25, 1981, and (B) did not treat (or reserve
jurisdiction to treat) any amount of retired pay of the
member as property of the member and the member’s
spouse or former spouse.
(2) Notwithstanding any other provision of law, this
section does not create any right, title, or interest
which can be sold, assigned, transferred, or otherwise
disposed of (including by inheritance) by a spouse or
former spouse. Payments by the Secretary concerned
under subsection (d) to a spouse or former spouse with
respect to a division of retired pay as the property of a
member and the member’s spouse under this subsection may not be treated as amounts received as retired
pay for service in the uniformed services.
(3) This section does not authorize any court to order
a member to apply for retirement or retire at a particular time in order to effectuate any payment under this
section.
(4) A court may not treat the disposable retired pay
of a member in the manner described in paragraph (1)
unless the court has jurisdiction over the member by
reason of (A) his residence, other than because of military assignment, in the territorial jurisdiction of the
court, (B) his domicile in the territorial jurisdiction of
the court, or (C) his consent to the jurisdiction of the
court.

48a
3.

10 U.S.C. § 1409 (2006) provides:

10 U.S.C. § 1409. Retired pay multiplier
(a) Retired Pay Multiplier for Regular-Service Nondisability Retirement.—In computing—
(1) the retired pay of a member of a uniformed service
who is entitled to that pay . . .—
...
the retired pay multiplier (or retainer pay multiplier)
is the percentage determined under subsection (b).
(b)

Percentage.—

(1) General rule.—Subject to paragraphs (2) and (3),
the percentage to be used under subsection (a) is the
product (stated as a percentage) of—
(A)

2 1/2, and

(B) the member’s years of creditable service (as defined in subsection (c)).
...
(c) Years of Creditable Service Defined.—In this section, the term “years of creditable service” means the
number of years of service creditable to a member in
computing the member’s retired or retainer pay (including 1/12 of a year for each full month of service that
is in addition to the number of full years of service of
the member).

49a
4. 130 STAT. 2164 PUBLIC LAW 114–328, Section
641 (Dec. 23, 2016) provides:
SEC. 641. USE OF MEMBER’S CURRENT PAY
GRADE AND YEARS OF SERVICE AND RETIRED PAY COST-OF-LIVING ADJUSTMENTS,
RATHER THAN FINAL RETIREMENT PAY
GRADE AND YEARS OF SERVICE, IN A DIVISION OF PROPERTY INVOLVING DISPOSABLE
RETIRED PAY.
(a) IN GENERAL—Section 1408(a)(4) of title 10,
United States Code, is amended—
(1) by redesignating subparagraphs (A), (B), (C), (D)
as clauses (i), (ii),(iii),(iv), respectively;
(2)

by inserting “(A)” after “(4)”;

(3) in subparagraph (A), as designated by paragraph
(2), by inserting “(as determined pursuant to subparagraph (B)” after “member is entitled”; and
(4) by adding at the end the following new subparagraph:
“(B) For purposes of subparagraph (A), the total
monthly retired pay to which a member is entitled
shall be—
“(i) the amount of basic pay payable to the member
for the member’s pay grade and years of service at the
time of the court order, as increased by
“(ii) each cost-of-living adjustment that occurs under
section 1401a(b) of this title between the time of the

50a
court order and the time of the member’s retirement
using the adjustment provisions under that section applicable to the member upon retirement.”.
(b) APPLICATION OF AMENDMENTS.—The amendments made by subsection (a) shall apply with respect
to any division of property as part of a final decree of
divorce, dissolution, annulment, or legal separation involving a member of the Armed Forces to which section
1408 of title 10, United States Code, applies that becomes final after the date of the enactment of this
Act.
5.

Minnesota Statute 518.003 (2006) provides:

518.003 DEFINITIONS.
Subdivision 1. Scope.
For the purposes of this chapter and chapter 518A,
the following terms have the meanings provided in this
section unless the context clearly requires otherwise.
Subd. 3b. Marital property; exceptions.
“Marital property” means property, real or personal, including vested public or private pension plan
benefits or rights, acquired by the parties, or either of
them, to a dissolution, legal separation, or annulment
proceeding at any time during the existence of the marriage relation between them, or at any time during
which the parties were living together as husband and
wife under a purported marriage relationship which is
annulled in an annulment proceeding, but prior to the
date of valuation under section 518.58, subdivision 1.

51a
All property acquired by either spouse subsequent to
the marriage and before the valuation date is presumed to be marital property regardless of whether title is held individually or by the spouses in a form of
co-ownership such as joint tenancy, tenancy in common, tenancy by the entirety, or community property.
Each spouse shall be deemed to have a common ownership in marital property that vests not later than the
time of the entry of the decree in a proceeding for dissolution or annulment. The extent of the vested interest shall be determined and made final by the court
pursuant to section 518.58. If a title interest in real
property is held individually by only one spouse, the
interest in the real property of the nontitled spouse is
not subject to claims of creditors or judgment or tax
liens until the time of entry of the decree awarding an
interest to the nontitled spouse. The presumption of
marital property is overcome by a showing that the
property is nonmarital property.
“Nonmarital property” means property real or personal, acquired by either spouse before, during, or after
the existence of their marriage, which
(a) is acquired as a gift, bequest, devise or inheritance made by a third party to one but not to the other
spouse;
(b)

is acquired before the marriage;

(c) is acquired in exchange for or is the increase
in value of property which is described in clauses (a),
(b), (d), and (e);

52a
(d) is acquired by a spouse after the valuation
date; or
(e)
6.

is excluded by a valid antenuptial contract.

Minnesota Statute 518.58 (2006) provides:

518.58 DIVISION OF MARITAL PROPERTY.
Subdivision 1. General.
Upon a dissolution of a marriage, an annulment,
or in a proceeding for disposition of property following
a dissolution of marriage by a court which lacked personal jurisdiction over the absent spouse or lacked jurisdiction to dispose of the property and which has
since acquired jurisdiction, the court shall make a just
and equitable division of the marital property of the
parties without regard to marital misconduct, after
making findings regarding the division of the property.
The court shall base its findings on all relevant factors
including the length of the marriage, any prior marriage of a party, the age, health, station, occupation,
amount and sources of income, vocational skills, employability, estate, liabilities, needs, opportunity for future acquisition of capital assets, and income of each
party. The court shall also consider the contribution of
each in the acquisition, preservation, depreciation or
appreciation in the amount or value of the marital
property, as well as the contribution of a spouse as a
homemaker. It shall be conclusively presumed that
each spouse made a substantial contribution to the
acquisition of income and property while they were living together as husband and wife. The court may also

53a
award to either spouse the household goods and furniture of the parties, whether or not acquired during the
marriage. The court shall value marital assets for purposes of division between the parties as of the day of
the initially scheduled prehearing settlement conference, unless a different date is agreed upon by the parties, or unless the court makes specific findings that
another date of valuation is fair and equitable. If there
is a substantial change in value of an asset between
the date of valuation and the final distribution, the
court may adjust the valuation of that asset as necessary to effect an equitable distribution.

54a
STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF HENNEPIN

FOURTH JUDICIAL
DISTRICT

Thomas M. Dillahunt,
Petitioner,
Transcript of The Proceedings

vs.

Court File No. 27FA-06-4968

Tami L. Dillahunt
n/k/a Mitchell
Respondent.

The above-entitled matter came before the Honorable Bridget Sullivan, Judge of District Court, at the
Government Center, Minneapolis, Minnesota, on June
11th, 2018.
*

*

*

*

APPEARANCES
Deborah Dewalt, Attorney at Law, appeared on behalf of Petitioner;
Christopher Zewiske, Attorney at Law appeared
on behalf of the Respondent, who was personally present.
*

*

*

*

[2] * * * PROCEEDINGS * * *
THE CLERK: This is the case in the marriage of Thomas M Dillahunt and Tami Lynn Mitchell

55a
case number 27FA064968, parties please note your
appearances.
THE COURT:

Okay.

PETITIONER:

Thomas Dillahunt.

MS. DEWALT: My name is Deborah Dewalt
and I’m here on behalf of Mr. Dillahunt.
MR. ZEWISKE: Christopher Zewiske,
Z-E-W-I-S-K-E, here on behalf of the respondent, Tami
Mitchell, who is seated – present and seated to my left.
THE COURT:

Okay. Who –

RESPONDENT:
THE COURT:

Tami –

Are you?

RESPONDENT:
THE COURT:
rupt you.

Tami Mitchell.
Sorry, didn’t mean to inter-

RESPONDENT:

That’s okay.

MR. ZEWISKE:

Good morning, Your Honor.

RESPONDENT:

Good morning.

THE COURT: Hang on a second. So, all
right. I think this was the – Mr. Dillahunt’s motion.
And [3] obviously you filed a response of motion. And
then there was – you filed the motion –
RESPONDENT:

Yes, Your Honor.

56a
THE COURT: I guess I’m just trying to figure out who’s going to –
MS. DEWALT:

We should start, Your Honor.

THE COURT:

That’s what I thought.

MR. ZEWISKE:

We have no objection to

that.
THE COURT:

And –

MR. ZEWISKE:
THE COURT:

It’s their –
He’s representing –

MR. ZEWISKE:
THE COURT:

Motion.
You, right? Okay. Just want –

MR. ZEWISKE:
THE COURT:

Yes.
To make that clear. Okay. Go

ahead.
MS. DEWALT: Well, Your Honor, we are here
today on two sets of issues.
THE COURT:

Yes.

MS. DEWALT: One is related to the parties
daughter XXXX who’s going to be 16 in September and
the other is related to the property issue and I would
like to start with the property issue.
And one thing that this court probably has noticed
is, is this has been a very litigious case.
[4] THE COURT:

Oh, yeah, it’s –

57a
MS. DEWALT:

There have been –

THE COURT:

Think it’s probably –

MS. DEWALT:

On –

THE COURT: Case I’ve seen since I’ve been
doing this for the last 7 months.
MS. DEWALT: Motions brought nearly every
year by Ms. Mitchell and on this particular issue, Your
Honor, I believe that Ms. Mitchell is using a technique
which is called “flooding,” and what that means, Your
Honor; on the table in front of me in this red folder are
the motion papers which my client has filed.
And they are – consist of his affidavit, a memorandum of law, an affidavit of – a one or two page affidavit
from his wife, and an affidavit from our expert Mr. Tom
Use [sic], who is I believe in the twins area – twin cities
area, recognized as our top pension expert.
On the other side, in this blue folder, Your Honor,
are the submissions that we have received from Ms.
Mitchell including, five days ago, a reply affidavit. It
asks for new relief and raises new facts which we, under the rules, have no opportunity to respond to unless
this court permits a –
THE COURT:

Mm-hmm.

[5] MS. DEWALT:
THE COURT:

A response.

Mm-hmm.

58a
MS. DEWALT: Or strikes the motions. So in
this context, Your Honor, the parties have most of the
litigation in the last 10 years has had to do with the
party’s child, XXXX.
There have been things –
THE COURT:

I can see that.

MS. DEWALT: That have been delayed because of that. Ms. Mitchell up until recently was employed by the U.S. army. She’s a lawyer, I believe. She
spent time in the criminal division.
My client is the sole bred [sic] winner for his family. He’s been employed managing various departments
at CostCo [sic] and currently manages a Taco Bell.
So the little disparity in economic resources. So we
are here today asking the Court to approve the order
to divide military pension, which Mr. Use has drafted
and are some basic facts that are important for the
Court to know.
The parties were married for 10 years. Ms. Mitchell
retired about 10 years later when she had 20 years
with the military. She retired and is receiving, as of
September 1st, 2017, a pension benefit of $3,696.
[6] In addition, she is receiving a VA disability
benefit of $1,534. There is no reduction in the military
pension benefit for the disability benefit. There is no
disagreement that Ms. Dillahunt – or Ms. Mitchell is
entitled to the entire VA disability benefit and there is
no disagreement that that disabilities underlying that

59a
benefit include some disabilities that occurred during
the marriage and some that occurred after the marriage, okay?
So really what’s the issue – at issue, is the division
of this $3,696 pension benefit.
THE COURT: Can I ask you, why wasn’t
this all decided as a part of the judgment and decree?
MS. DEWALT: Well, Your Honor, it was. The
judgment and decree says that Mr. Dillahunt is entitled to 1 half of the marital portion of the pension. And
there were some preliminary discussions about an order.
There was never any order entered, as far as I can
tell. There was never any final language agreed upon.
And while it is certainly best practices among family
lawyers for orders to divide pensions to be done within
a certain period of time of time after the decree, the
reality, Your Honor, is that sometimes it’s not done.
And I have assisted people with drafting QDROs
[7] that were 15, 20, years after entry of the decree.
Some lawyers are better at implementation, some clients are better at implementation.
What is clear is this – this court has continuing
jurisdiction over the division of this asset.
THE COURT:

Okay.

MS. DEWALT: Okay? So here’s what the
problem is with the parties is that the language of the

60a
decree is it exactly what I said. Fifty percent of the
marital portion of the military pension.
In Minnesota, that language is susceptible of a
particular meaning because of the Janssen case, which
says; if you have an unvested pension, you use the
coverture formula. So you take the total number of the
years of service, as the bottom of a fraction.
The top of the fraction is the total number of years
of the marriage, times the pension benefit when it’s
received, times the percentage awarded to the other
party.
That is the order which Mr. Use [sic] has drafted.
Now, there is an issue as to when – what is the marital
portion and we would acknowledge, Your Honor, that
there are 3 possible interpretation [sic] of that.
One would be the date of the divorce, which would
[8] be March – just a minute I have it here in my notes;
March 26, 2008. Another date, the one – the statutory
date, would be September 9th, 2007, and –
THE COURT:

What do you mean statutory

MS. DEWALT:

Pretrial conference. The –

THE COURT:

Okay.

MS. DEWALT:

Day of –

THE COURT:

Got it.

MS. DEWALT:

The first –

date?

61a
THE COURT:

Got it, got it.

MS. DEWALT:

Scheduled pretrial –

THE COURT:

Got it. I’m sorry.

MS. DEWALT: Conference. And the third
date would be the date of the ICMC. And there is no
evidence before this court as to what was in the ICMC
order. So technically, that would be [sic] put us back to
the pretrial date. But it doesn’t –
THE COURT:
comments from them.

You need to, like, you know, no

MS. DEWALT: For the purpose of my argument, Your Honor, Mr. Dillahunt would accept which
ever those dates that the Court –
THE COURT:

Okay.

MS. DEWALT: Finds governs those dates,
all right? That isn’t the arena of big dispute.
[9] THE COURT:

Okay.

MS. DEWALT: What is in dispute, Your
Honor, is Ms. Dillahunt wants this court to reduce Mr.
Dillahunt’s 50 percent for a disability benefit, for the
disabilities attributable to the time of the marriage,
even though she’s actually receiving VA disability benefits for them.
THE COURT:
little bit.
MS. DEWALT:

Help me understand that a
Pardon?

62a
THE COURT: I’m not quite sure I understand what your characterization of her argument is.
She’s saying her –
MS. DEWALT:

She’s saying –

THE COURT: Half of the – of the retirement, of her pension should be reduced because of a
disability she suffered during the marriage.
MS. DEWALT:

Correct.

THE COURT:

Okay.

MS. DEWALT: Even though, in actuality,
she’s getting the – 100 percent of the disability –
THE COURT:
MS. DEWALT:
of her disability.
THE COURT:

Right.
Benefit of 100 percent of all
Got that.

[10] MS. DEWALT: All right? So I think
that’s really kind of our key issue here, Your Honor.
And there is absolutely no support for her position.
She’s going to tell you that it has to do with a lot of
military law. But even the military law does not dictate
the result that she’s arguing for.
Because of the huge, immense, factual difference
that she’s actually getting the disability benefit. And
I’m here to say that if it were the case, that somehow,
under existing military law, she would not be getting a

63a
disability benefit for that 40 percent disability she
claims occurred during the marriage.
We might be having a different discussion. But
she’s receiving it and unlike some other military situations where the pension is reduced by the amount the
disability benefit, Ms. Mitchell plans to receive both
100 percent of her military pension and the entire disability benefit.
So all of this comes down to a very simple point,
Your Honor. There is no reason for the Janssen coverture formula, to not apply in this case. And much of the
military law that Ms. Mitchell is going to argue for, correctly understood, does not dictate what she’s arguing
for.
And Mr. Use [sic] goes into that in some detail in
his [11] affidavit and I’m not going to repeat all of that
–
THE COURT:

Okay.

MS. DEWALT: For the Court. There is, I
think, also – this court is to equity by the parties, the
property division for the parties was to be fair and equitable.
And this is the result that Ms. Dillahunt [sic] is
arguing for; her formula, which she says must be applied because the pension was only partially vested,
would leave my client with $133.94 per month. Remember, this was a marriage that was half of the military service.
THE COURT:

Right.

64a
MS. DEWALT: She would then receive about
3300 – excuse me $3,560. That doesn’t strike the balance of being fair and equitable in my view or in my
client’s view which is probably more important.
The result of – let’s say that would adopt Mitchell’s
position that the correct date would be June 24, 2006,
the date of the ICMC conference in this case, in that
case, my calculation which I would be the first to say
will ultimately need to be recalculated by the army
when it actually effectuates the order to divide pension, but my estimation, if you will, is that my client’s
share is $729.68.
[12] That would be 50 percent of 10 years over 20
years of $3,696. That’s kind of approaching something
that sounds a little bit more fair, Your Honor.
THE COURT:

Okay.

MS. DEWALT: It – it – it gives Ms. Mitchell
considerable credit for putting in those extra 10 years,
it gives her credit for the 10 years where she was fortunate enough to advance and have higher earning as
she progressed through her career.
Again, $133,730. She’s still left with a significant
pension. I want to say, too, because there’s going to be
some talk I’m sure about while it should be calculated
what it would have been at the time of the decree.
Well, Your Honor, at the time of the decree, if I understand the law on military pensions correctly, Ms.
Mitchell only had 10 years in. If she had retired on the
valuation date, whatever it is, we wouldn’t be here

65a
because she would have been entitled to no retirement,
all right?
THE COURT:

Uh-huh.

MS. DEWALT: So this is the whole conundrum of dividing, at one point, a pension with the occurrence of many year before it actually goes into pay
stubs.
[13] And the only VEB items that we have on that,
in Minnesota, is the Janssen case. Now Mr. Zewiske is
probably going to talk about a couple of other cases,
where there were other formulas used, and you’ll see
that Mr. Use in his affidavit points out that in both of
those cases, the parties had agreed to something different. They had agreed to different formulas.
In this case, the formulation of the parties, that is
in the decree is 50 percent of the marital portion of the
pension. You can almost lift those words right out of
Janssen.
So that’s why we’re here saying Mr. Use has considered all of the arguments that Ms. Mitchell has
made, we’re asking you to adopt his order to divide
pension. It’s a straight forward, fair interpretation of
the decree.
The result of that, Your Honor, will be that Ms.
Mitchell will owe my client some back pay. Ms. Mitchell
in her reply affidavit points out that they are [sic] child
support is based on the full amount of child support.
*

*

*

66a
[23] MR. ZEWISKE: Thank you, Your Honor.
Let me start by correcting a couple of things. One, the
[24] pension benefits started on November 1st, 2016,
not November, 2017, as stated by Ms. Dewalt. Two, the
ICMC was August 24th, 2016, not June 24th, 2016.
This becomes important later on – Mr. Use’s [sic] –
2006, I’m sorry, not 2016. So August 24th, 2006.
*

*

*

[32] MR. ZEWISKE: As to the money, so
there are actually 3 disputes as to the money. One,
what is the date of valuation? So Ms. Dewalt indicated
that the ICMC order for whatever reason was not ascertainable, it is. I went down to the – the first floor
today, the Court can pull it up. There is no specific date
mentioned in the ICMC order.
THE COURT:

Okay.

MR. ZEWISKE: Okay? The ICMC was held
on August 24th, 2006. There was a standing order issued by judge Swenson in 2001 that the ICMC date
shall be the valuation date for the purposes of dissolution. My –
THE COURT:

Okay.

MR. ZEWISKE: Client attached that to her
[33] pleadings. In addition, if the Court looks at the
property settlement of the parties and that was attached as an exhibit, exhibit C to her affidavit, property settlement dated April 2nd 2008, shows August
24th, 2006 as the valuation date for every asset that’s
listed.

67a
There is –
THE COURT:

Are you –

MR. ZEWISKE: Actually one asset that is I
think before the valuation date because that was the
statement they could get, but before August 24th.
Other than that, there’s no evidence before this court
that there should be another date. There was no –
THE COURT:

Okay.

MR. ZEWISKE: Argument in the judgment
and decree that there should another date, which
would be the basis for either the date of dissolution or
to the date of the pretrial settlement conference, right?
Or some other –
THE COURT:

Okay.

MR. ZEWISKE: I could argue. So that’s the
first issue. We believe it’s August 24th, Mr. Use’s [sic]
proposed order does not use August 24th, it uses June
24th. I don’t know where he got that date. He then says
September 12th, which is the date of the [34] order, I
think that’s what he was going from, the date of the
ICMC order. And I think it was actually September
11th, but – so there’s those dates.
Then there’s the pretrial, then there’s the date of
dissolution.
The second issue is, and this is where we get, I
think, into the nitty gritty of what the judgment and
decree was actual valuing, right? There are two ways
to divide a pension, right?

68a
One, is to come up with the present value as of the
date of dissolution, right? That can be done. There’s a
second way. To do a Janssen formula, which is the numerator over the denominator times whatever the
numbers are, right?
THE COURT:

Mm-hmm.

MR. ZEWISKE: And that then includes her
post marital increase. So the issue here becomes what
were the parties actually valuing when they did a
property settlement order that said 50 sent [sic] of the
marital value. Now, I think Ms. Dewalt is right, if
you’re going to use Janssen, that’s the formula you use,
and she’s using the wrong dates, Mr. Use [sic] has used
the wrong dates but the question is, could this pension
have been valued as of that date? As of the date of valuation? And it can.
[35] My client has shown in her affidavit you can
get to a number. Now, part of that number is, the disability she had at the time of the dissolution, which
was 40 percent.
THE COURT:

Why is that?

MR. ZEWISKE: She had dissolution from
active service or disability from active service. And the
– so under federal law, the disability is offset against
the pension.
Now, what has happened subsequently, since the
entry of 2008 stipulation and the date of valuation August 24, 2006, is that Ms. Dillahunt or Ms. Mitchell has

69a
become additionally disabled. She’s gone from 40 percent to 90 percent disabled.
That disability is post date valuation. So in essence what Mr. Dillahunt would have the Court do today is give him a win fall [sic] for, and again, her
calculation of benefits increases because of her additional years in.
So her top three years at the time of the dissolution and her top three years now are different. So that’s
a non marital increase not a marital increase. He
would be receiving a benefit because she’s worked
longer.
In addition, because the disability became [36]
greater, he’s receiving a benefit. So he’s receiving the
extra money that the disability payment would have
offset against the retirement payment; that’s federal
law, there wasn’t a choice at the time.
Now, why are we here? Because in 2008, there was
an order that said this is how we’re going to draft this
but there was no agreement, right? So 50 percent of the
marital value. The petitioner was told to draft the
agreement. I don’t know why that was agreed upon but
it was.
We’re 10 years later and the first agreement offered was a month ago.
Now, Mr. Dillahunt knew at the time this was
drafted and he signed. He knew in 2011, he knew in
2016, and he obviously knows now that these things
had to be done.

70a
Had we drafted this in 2008, you would have had
a number that number was ascertainable as a payment; that would have been the simplest and easiest
way to do it.
There’s no longer any formula, you don’t figure it
out at the time she leaves the military in 20 years, you
do it at the time. That formula’s pretty simple. It’s the
years of marriage over the years of her service at the
time and there was an ascertainable number that you
can multiply that by, right? Because [37] there is a coverture formula there.
She had 10 extra months in the military prior to
her marriage. So it’s about 91 percent of the value of
her pension at that time. That’s ascertainable then and
it’s ascertainable now.
The disability portion of that, might have been a
part of it but it has to be part of the formula because if
she drops below 9 – or 50 percent disability, the federal
government could say, you have to offset. That’s still a
requirement.
So if her disabilities, some of which are temporary,
and she’s at 90 percent right now. Some of those may
disappear. She may be go – may go below 50 percent,
which then means if the disability that she receives –
and I’m going make up a number for the Court for this
discussion – is $500, that $500 is offset against her
pension amount.
That was – that was the situation at the time
when they made their agreement. Now, what are we

71a
talking about, again, why are we here. And again, my
client argues within her affidavit, the doctrine of
laches, he – he’s – he’s asking for a retroactive application of this back to the date of her first payment, November 1st, 2016; and he gives a number of arguments
why he didn’t do it: I couldn’t afford to. [38] I didn’t
have an attorney at the time. I didn’t know about it.
Expect, he did know about it. And he knew about
it and that’s in my client’s affidavit. She let him know
6 months before she was going into retirement, she let
him know a month. We did a mediation and we came
to this court in January of 2017 or December of 2016
and the Court issued an order where he agreed he
would be getting documentation together.
He didn’t do it. I mean, here we are a year and –
and a – 3 months later. Frankly, it should have been
done in 2008, we wouldn’t be having this problem now.
So the doctrine of laches does apply as my client
set out in her memorandum pretty clearly. And the excuses that he uses are all undermined if the Court
looks at their case law which is the WC – WACM case.
Which one of the things in there is poverty is not
an excuse to doing this. You know, you don’t get to come
in – has there been prejudice? Yes. There definitely has
been prejudice because we’re spending money here arguing about this, right?
My client will have to go back two years if this
court says, hey look it, we’re going to put it in place 2
years and go at an amount, right? Everything has to

72a
[39] be fixed it’s a huge problem. It’s not a small problem, there’s prejudice. Frankly, he’s coming in and arguing equity while he sat on his hands for 10 years to
get this done.
There certainly is a solid laches argument on this
case, in addition to the fact that you don’t even have to
choose Tom Use’s [sic] numbers. Like I said, you can
present – you can value that pension as of the date of
valuation.
There is a number for the value that she would receive at the time. There is a number because we know
she’s completed her 20 years, so it’s ascertainable.
There’s a number for disability. There’s a number
of for the years marriage. And there’s a number for her
total service at that time. All of those numbers can be
put in.
So the Court offers a Janssen formula on an unvested pension at the time, by the time 2008 rolled
around, she would have been vested. She would have
been over 10 years. Or right at the number.
RESPONDENT:
until I hit the 20.
MS. DEWALT:

There’s – there’s no vesting
Twenty years.

MR. ZEWISKE: Okay. So – but there was
still a number that could have been ascertained.
[40] RESPONDENT:
tirement.

The hypothetical re-

73a
MR. ZEWISKE: Yes. We believe that it’s appropriate to order that. So I – I did want to go over
some – we agree on the judgment numbers, so my client put in her response to affidavit that the judgment
number – she was fine with what the petitioner offered
and that was 4340 on the property judgment from
1/27/17 so that’s principle plus interest through July
lth [sic] or through June 30th, I guess.
THE COURT:

Mm-hmm.

MR. ZEWISKE: And 464256 as of June 30th,
2018 on the attorney fee award. So that was a dispute,
I think, in the motions it’s an agreement here.
As to the attorney fee award, there is an order to
show cause. Attorney fees are able to be held in contempt. He owes my client over $8,500 from a 2017
property problem. Wherein $4,000 was awarded to my
client, and the 4500 in attorney fees was awarded.
The attorney fees is collectible through this
method. He has been served with the order to show
cause. We would ask that he has notice that he hasn’t
paid them. He hasn’t paid anything.
THE COURT:
that order, right? Or –
MR. ZEWISKE:

Was it – but you didn’t file
I–

[41] THE COURT:
MR. ZEWISKE:
MS. DEWALT:

He’s –

I have it here with me. He –
No. Wait –

74a
MR. ZEWISKE:
THE COURT:

I have the –
He –

MR. ZEWISKE:
THE COURT:

I have –
He was –

MR. ZEWISKE:
served. He was served.

The original has to be

THE COURT: Okay. But you didn’t file, like,
an affidavit of service, did –
MR. ZEWISKE:
THE COURT:
MR. ZEWISKE:
them with me.
THE COURT:

I have –
You?
Them both here. I brought
Okay.

MR. ZEWISKE: And I will hand them to the
Court. Well, I have original order and I wanted to get –
make sure the Court had it back.
THE COURT:
me, just file them.

We don’t need to hand it to

MR. ZEWISKE: Okay. I will do that. Old
practice was to make certain that the Court had the
original back.
THE COURT:

Oh. I –

[42] MR. ZEWISKE:
But –

So I am fine either way.

75a
THE COURT:
accept originals so –

Well, we were told never to

MR. ZEWISKE: So whatever the situation,
he has notice of the issue. He seemingly has the ability
to pay because he’s been paying an attorney and he’s
been paying for other things that are laid out in my
client’s affidavit.
We would ask that the Court say, you have notice.
We want to move forward. This is, in essence a Hop
hearing. And the Mohadi hearing would be the second
half. The Court can basically order that to take place
at any time.
Certainly the Court can give 30 days if it likes.
But, you know, it’s been over a year and 0 payments
have been made. Now, this again is a property issue.
And there is a lot of finger pointing in affidavits, both
ways, I understand that.
But a lot of the finger pointing from the petitioner’s side is, well, somehow this was my client’s fault
that this wasn’t taken care of, both as to this issue and
as to other issues.
And I – I don’t know how that’s the case. One of
the – the issue that we were back here last year [43]
was on a piece of Hawaii time share that was supposed
to be divided.
Well, we have a $4,000 judgment, now that hasn’t
been paid either. This could have been done 10 years
ago. This is why we’re asking for attorney fees in this

76a
case. Because basically, if this had been done 10 years
ago, we wouldn’t be having these issues now.
Theoretically, there are back and forths between
the parties and their counsel, back in 2008. Now, you
know, I’ve laid out in my affidavit and she has laid out
in her affidavit, the amounts we’re asking for. The total attorney fees she’s asking for are about 5500 to 6
grand. And the cost she’s incurred in having to travel
here for this hearing is about 3100 bucks for mediation
on these very issues.
There is a provision, which referee Moses noted in
the last order that she issued in 2017 on this same issue. April 2nd, 2008, as part of the property, conclusion
8 that frankly, if you are the cause, of – of us having to
come back here you are responsible for the attorney
fees and costs of having to do it.
That was the basis for referee Moses decision in
January of 2017, I think it should be the basis for this
court’s decision now.
One other thing, and this goes to the financial [44]
issue now. If there is an ambiguity, right? That either
the terms of the property settlement as to the division
of the property are ambiguous or they’re not ambiguous, if there is an ambiguity, I think this court then has
to decide whether it wants to hear evidence on that issue other than what we’ve heard today.
Because there was no trial in this. There was a
property settlement stipulated to by the parties. If the
Court can determine, and maybe this Court doesn’t

77a
have enough information right now to know whether
you could determine the value at the time of 2006, well,
I think my client has put in enough information to
have the Court make that decision or that it should do
a Janssen formula maybe there should be some sort of
evidentiary hearing on the issue of whether or not, you
know, this was possible with testimony and those types
of things because that’s what would have happened
then.
That’s where there’s an ambiguity. We don’t believe there’s an ambiguity. We think that the value is
set, ascertainable at the time and should [sic] awarded
as my client has set out in her affidavit. Thank you.
THE COURT:

Okay. Now its your turn.

MS. DEWALT:

I’m going –

THE COURT:

Thank you.

MS. DEWALT:

To go backwards.

[45] THE COURT:

Sure.

MS. DEWALT: Okay? In terms of, you know,
attorneys’ fees, for coming back here because somebody
didn’t do what they were supposed to do. You know,
there was an order that my client gets 50 percent of
the military pension. He didn’t get anything as of November 1st, 2016, either party could have drafted an
order to divide the military pension so where – where
is the line? He was supposed to draft the order.

78a
THE COURT: Didn’t Mr. Zewiske just tell
me it said in the order he was going to – he was supposed to –
MS. DEWALT:

Well, there’s an order –

THE COURT:

Draft it?

MS. DEWALT: Here today, Your Honor, and
I – I just want to say something. You know, Ms. Mitchell
has a very detailed, very rule, very law oriented approach. But there’s been delays on her behalf, too.
I mean, why did she come back 10 years on a
Hawaii time share? Why – why did it become important in 2017, when it wasn’t important for the prior
10 years?
Why did she not go ahead and draft a proposed order to divide pension? Why did she not voluntarily give
my client 50 percent of the marital portion if she [46]
deemed fit?
I think, Your Honor, there’s only 2 years left, about
2 years, 2 and a quarter maybe where these parents
are bound together by a child who’s 18 years old.
There’s been an awful lot of beating each other up
in this case. My client had a basis in this proceeding
also to ask for attorneys’ fees. If anything, on – at various times based on need and conduct, but it’s time for
these party to lay down the – the – the things that
they’re beating each other up with.
So we made a deliberate decision, not just with
this proceeding but back on an appeal that we won. Not

79a
only not to ask for any based attorneys’ fee but also not
to ask for costs and disbursements. And we are not asking for attorneys’ fees here today.
And, Your Honor, we are urging the Court not
award either side attorneys’ fees. My client attempted
to resolve the pension issue. It was pretty clear early
on that there was an disagreement. We got a motion
date. We went to mediation. We tried to resolve it.
We’re here today with the same dispute we started out
with.
THE COURT: Okay. Let’s talk about the [47]
pensions. I’m not going to have time – I think I –
MS. DEWALT:
Your Honor?

Can I just go really quick,

THE COURT: Yeah. I don’t need to hear any
more about the PC or –
MS. DEWALT: Well, there’s one thing I do
want to say about the PC, in connection with the PC is
that this court has jurisdiction and it’s optional
whether you go to the PC or the Court but I do want to
say this; with regard to doctor Lisne, my client is willing to pay for the written report. I believe that Mr.
Zewiske said that that was the objection and he’ll take
care of it.
THE COURT:

Okay.

MS. DEWALT: The parties chose not to do a
pension valuation in 2008. And again, my understanding of military law is they – if they had valued that

80a
pension as of that date, if she had terminated employment with the military as of the pertinent date, would
have been 0.
So it was – it – it’s clearly the intent for my client
to get something.
THE COURT:

Oh, no. I get it.

MS. DEWALT: And there’s a lot of speculation about this 40 percent disability rating, 90 percent
[48] disability rating. I believe that there may have
been an injury at the time of the divorce, I don’t believe
there was any specific rating, at least I haven’t seen
anything.
But otherwise, the parties did not reach an agreement on the language for an order. Both of them had
an option to duke this out earlier on, as is the case so
many, many times it isn’t until you get to the point
where it makes a difference that people start paying
attention to it.
THE COURT: The way that Mr. Zewiske’s
formula, correct, I mean we should use the ICMC date
of August 24th.
MS. DEWALT: And, Your Honor, I think
we’ve been pretty open in –
THE COURT:

Okay. Okay.

MS. DEWALT: Acknowledging that’s a possible interpretation of the Court. Mr. Zewiske is of the
opinion that it’s a controlling interpretation. So it’s

81a
based on her earnings record as of that date, in proration to the total payment.
What’s being asked for, Your Honor, though, is
kind of a double. They want both their idea plus
Janssen. So they want to limit the amount of the – the
earnings to the earning’s record in which the [49]
monthly benefit is based to what it was on the valuation date.
They want to go back and do a disability rating
for something on which there was no disability rating,
there is no and it is known that it is a separate benefit.
And I do believe, if you look carefully at Mr. Use
[sic] affidavit, she qualifies for the – what will change
is – he addresses this issue of future change in disability rating.
So then they also want to take the Janssen formula and apply it so they – which is double dipping,
quite frankly, Your Honor.
The Janssen formula attempts to approximate the
value and isolate the value of the marital portion of the
pension with this coverture formula, but if you’re going
to say we’re going to limit it to what it was on the date
of the marriage, you’ve already isolated it.
So you don’t have to double isolate it. The reason
they get such a small number, Your Honor, is they look
at the monthly benefit as of the valuation date, and
then they also apply the coverture formula.

82a
And they also apply a disability rating which actually did not exist on the date of the marriage and
they want to apply that retroactively.
[50] Event new formula that the military sets,
Your Honor, would not apply the coverture formula and
it would not apply the disability rating at the time the
order’s entered it applies the disability rating and
whether or not it’s required to be waived or not is applied at the time of retirement.
THE COURT:

Okay.

MS. DEWALT: And I – I know this sounds
like a lot of gobbledy gook, Your Honor. And I –
THE COURT:

No it doesn’t.

MS. DEWALT: I apologize for it. Its a highly
technical field but I think that’s another reason why
we should rely on Mr. Use [sic], who is a very experienced Minnesota expert.
And while Ms. Mitchell may have given advice to
soldiers, she was giving advice to soldiers. And so she
was looking for the most aggressive possible resolution
and certainly with regard to her own pension benefit
that’s what she’s looking at.
I took a slightly different approach and I asked
Mr. Use [sic], here’s what I’ve got in the decree, with
this language alone and your 30 years of writing quattros [sic] in order to divide pensions, is this language
susceptible, the meaning, without going any further;
his answer was, yes, it is.

83a
[51] THE COURT:

Okay.

MS. DEWALT: On the contempt, Your Honor,
a hope hearing – a hop hearing is an evidentiary hearing which this court is not scheduled for today and
which am not prepared for today. She has to prove failure and we have to prove good faith effort. We’re basing
this morning there was no payment.
And again, Your Honor, we might not have come
up with an order until now but there’s been an ongoing
discussion about this pension and an offer to use the
pension to make good the judgments or the orders for
monetary rewards that Ms. Mitchell has.
And Mr. Zewiske is shaking his head but actually,
the offer is attached in as an exhibit to Mr. Dillahunt
affidavit! As of October 1st, 2017, I said my client
wants to use his share of the pension to get your – to
make good with your client.
My understanding is that that was Tom’s position
earlier on. He couldn’t afford an attorney, Your Honor,
there’s a gap in time there.
THE COURT: Okay. But so I’m going to defer this to – or let judge Bernhard [sic] decide whether
or not – what he want to do with the scheduling such
a hearing but, your position is that even though the
Court ordered your client to pay, I forgot what it was
[52] $4,500?
MR. ZEWISKE:

Yeah.

84a
THE COURT: Ordered him to pay $4,500,
he doesn’t have to pay that as long as he makes an offer
to offset it – this payment with this pension dispute
that he has.
MS. DEWALT: Your Honor, my client did not
have the ability the to make payments on the judgment and also he offered a viable plan to get her paid.
That’s why we’re here today, Your Honor, is to get this
resolved so things can be squared away with these
parties.
THE COURT: Okay. Real briefly, I’m sorry,
I just have – I have a call at 11:00 so I apologize.
MR. ZEWISKE:
THE COURT:
MR. ZEWISKE:
THE COURT:

I–
I think I can get –
I can do 2 minutes.
Okay.

MR. ZEWISKE: Okay. As to the last issue,
my client has offered evidence that he could have paid
the judgments, he didn’t; he chose to pay other things
– paid attorneys, paid other debt. And that’s fine, he
can certainly do that, but that was a choice he made.
That’s in the affidavit.
PC, definitely not optional. If you come to this [53]
court with a motion and say I want to modify child support and you have a PC in the judgment and decree,
the Court’s going to say, go to the PC first; that’s not an
option thing. We don’t believe that that is appropriate

85a
to come here first. These things are determinable by
the PC.
Three, the reason that the Court ordered him to do
these things, that was an agreement of the parties, we
came to him in 2016 before she went into pay status
and offered him a deal to settle this case.
We mediated the issue, and then we brought it to
the Court, the Court said you have to do this. Still
didn’t do anything. As to the pension and disability, I
think, without getting in too much, I just want to explain one thing quickly because the Court seemed like
there was had a little confusion there.
If my client is less than 50 percent disabled, there
is an offset against the pension she receives. There is
evidence that she was disabled at the time of the dissolution. That is one of the issues that the parties were
arguing about at the time.
THE COURT:
yet. Correct?

But there has been no offset,

MR. ZEWISKE: Yet. Because now – because
once she went over 50 percent, the offset went away;
[54] that is federal law.
Federal law controls federal pensions, that’s the
Matson case. So that was the issue. And if this court
says, well, look it, on the date of valuation, were going
to value this pension, she would have been 40 percent
disabled at that time and that would have been part of
the discussion.

86a
Now, because some of the disabilities are temporary, person went to the military, they can be withdrawn. And she could fall below 50 percent again. That
has to be referenced in the order. Because if she falls
below 50 percent, she would have an offset coming out
of her pension again.
So in a year, if the military says; you are 50 percent
better than you were so you’re now 40 percent disabled
again, they would offset that amount. That has to be
part of the discussion here. This is one of the reasons
there was no agreement, that and the fact that he
never got anybody to do it.
But there is arguments between the counsel at the
time. So the formula is easy, right?
THE COURT:

Okay.

MR. ZEWISKE: In terms of the date of valuation, date of marriage, the date of valuation, over
date of start in the military, to date of [55] valuation,
that’s a coverture formula. It’s an extra 10 months. It
turns out to be about 91 percent of the value on the
date of valuation. That’s an ascertainable number. So
that’s why I mentioned the coverture formula.
I’m not, you know, my client had and different formulas in her pleadings, I’m telling the Court right now
that that is a formula that can be done, it indicates an
extra 10 months because that’s how much longer she
was in before the marriage and that’s a 91 percent
value of the total at the time, and represents the marital value of her pension at that time.

87a
The post marital value is her increased years of
service, right? Which increases the amount of the pension, and in addition, increased the disabilities that
she received after that. I have nothing further, Your
Honor.
THE COURT: Okay. All right. Thank you
very much. I’ll take this under advisement.
MR. ZEWISKE: Do you want something
from us in terms of the hop hearing? Are you – you said
you were going to give it to judge Burns, I mean, do you
want a letter saying what we would like to see on that?
THE COURT:
[56] appreciate that.
MR. ZEWISKE:

You know, I think he would
Okay.

THE CLERK: File something with the court
and file that, order to show cause in the service.
MR. ZEWISKE:
THE COURT:

I will do that.
Okay. Thank you.

(The proceedings were adjourned.)
[57] STATE OF MINNESOTA )
)
COUNTY OF HENNEPIN
)
I, Rachael N. Johnson, Court Reporter, hereby
certify that the foregoing pages are a true and correct
transcript of my stenographic notes taken relative
to the afore-mentioned matter on the 12th day of

88a
December, 2018, in the City of Minneapolis, County of
Hennepin, and State of Minnesota, before the Honorable Bridget Sullivan, Judge of District Court.
SIGNED THIS 12th DAY OF December, 2018.
/s/ Rachael N. Johnson
Rachael N. Johnson
Court Reporter
Hennepin County, Minnesota

